January 2007
Report No. 07-002


The Division of Supervision and
Consumer Protection’s Information
Technology-Risk Management Program




             AUDIT REPORT
                                                                                            Report No. 07-002
                                                                                                January 2007


                                      The Division of Supervision and Consumer Protection’s
                                      Information Technology-Risk Management Program

                                      Results of Audit
Background and                        DSC has established procedures within the IT-RMP for addressing IT security
Purpose of Audit                      risks at FDIC-supervised financial institutions. These procedures address most of
                                      the information security requirements contained in interagency guidance. Our
Information is one of a financial     review of 12 IT examinations found that examiners generally followed the
institution’s most important          procedures outlined in the IT-RMP, and in doing so, carried out the following
assets. Protection of information     activities:
assets is necessary to establish
and maintain trust between the
                                      • Identified the risks and technology deployed at the institution for the purpose
financial institution and its              of determining examination staffing needs.
customers, maintain compliance        • Reviewed the financial institution’s Officer’s Questionnaire regarding the
with the law, and protect the              bank’s risk management practices.
reputation of the institution.        • Performed onsite examination procedures to assess the financial institution’s
Information security is the process
                                           information security program.
by which an organization protects
and secures its systems, media,       • Assigned an IT composite rating at the conclusion of the examination and
and facilities that process and            reported IT examination findings in the report of examination.
maintain information vital to its
operations.                           However, improvements to the IT-RMP program would help to ensure adequate
Interagency guidelines require        and consistent implementation of the IT-RMP and related examination
financial institutions to implement   procedures. Specifically, DSC could revise certain IT-RMP tools to assist
a comprehensive written               examiners in more effectively identifying relevant IT security risks to be assessed.
information security program. To      We concluded that DSC could:
ensure that FDIC-supervised           • Clarify in the IT-RMP guidance the purpose and use of the Technology
financial institutions implement
                                          Profile Script, which is used to determine examiner staffing needs, or
adequate information security
program controls, the Corporation         reevaluate the benefits of continued use of this tool.
conducts periodic onsite              • Enhance the Officer’s Questionnaire provided to the financial institution to
information technology (IT)               address certain information security requirements contained in interagency
examinations and, in August               guidelines.
2005, the Division of Supervision     • Modify IT-RMP guidance to (a) replace some “yes/no” questions in the
and Consumer Protection (DSC)
established the Information
                                          Officer’s Questionnaire with more descriptive questions and (b) require that
Technology-Risk Management                examiners evaluate, based on identified risks, a sample of positive responses
Program (IT-RMP). IT-RMP                  to questions in the Officer’s Questionnaire to ensure their accuracy.
replaced the broad-based              • Expand instructions for the Summary Analysis, an IT-RMP examination
technology and control reviews            scoping and reporting tool, to clarify the extent to which examiners should
conducted under the former IT             document an institution’s risk profile and corresponding procedures to
examination program.
                                          address the risks.
The objective of this audit was to
determine whether the FDIC has        DSC also needs to update IT-RMP guidance to more clearly address the
established and implemented           methodology examiners should use in deriving the IT composite rating for a
adequate procedures for
                                      financial institution. Clarified guidance could increase assurance that IT ratings
addressing IT security risks at
FDIC-supervised institutions that     accurately and consistently reflect the effectiveness of an institution’s IT risk
offer electronic banking products     management practices and the adequacy of its information security program.
and services. We focused this
review on the IT-RMP and DSC’s        The report makes seven recommendations to enhance the tools and guidance
examiner training framework in        under the IT-RMP methodology and the IT training programs. FDIC
relationship to the new program.      management generally agreed with our recommendations and is taking responsive
                                      action to review DSC’s tools, guidance, and training programs as part of an
To view the full report, go to        evaluation of the first year of performance under the IT-RMP program and will
www.fdicig.gov/2007reports.asp        issue revised guidance or make enhancements as deemed necessary.
                            TABLE OF CONTENTS


BACKGROUND                                                             1

RESULTS OF AUDIT                                                       5

IT-RMP TOOLS                                                           6
   Technology Profile Script                                           6
   IT Examination Officer’s Questionnaire (Officer’s Questionnaire)    8
   IT Snapshot Work Program (Work Program)                            10
   IT Summary Analysis (Summary Analysis)                             11
   RECOMMENDATIONS                                                    13

IT COMPOSITE SCORING                                                  14
   IT Composite Ratings Definitions and Development                   15
   IT Rating Documentation                                            17
   RECOMMENDATION                                                     17

EXAMINER IT TRAINING                                                  17
  Alignment of IT-RMP Training                                        17
  IT On-the-Job Training (IT-OJT) for Non-IT Examiners                18
  RECOMMENDATIONS                                                     19

CORPORATION COMMENTS AND OIG EVALUATION                               20

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                         21
APPENDIX II: IT-RMP EXAMINATION STEPS                                 26
APPENDIX III: IT EXAMINATION RESOURCE STRATEGY
              MATRIX                                                  27
APPENDIX IV: FFIEC URSIT COMPOSITE RATINGS
              DEFINITIONS                                             29
APPENDIX V: CORPORATION COMMENTS                                      31
APPENDIX VI: MANAGEMENT RESPONSE TO
               RECOMMENDATIONS                                        35

TABLE
Scoping Elements Related to Risk Profiling                            12

FIGURE
Composite Ratings for FDIC IT Examinations Conducted in the           16
First Half of 2006
ACRONYMS

ACH        Automated Clearing House
AMDS       Audit, Management, Development and Acquisition, and Support and
           Delivery
CPO        Corporate Performance Objective
DSC        Division of Supervision and Consumer Protection
FACT Act   Fair and Accurate Credit Transactions Act of 2003
FDI        Federal Deposit Insurance
FFIEC      Federal Financial Institutions Examination Council
FIL        Financial Institution Letter
GLBA       Gramm-Leach-Bliley Act
IT         Information Technology
ITEC       Information Technology Examination Course
IT-MERIT   Information Technology Maximum Efficiency, Risk-Focused, Institution
           Targeted
IT-OJT     Information Technology On-the-Job Training
IT-RMP     Information Technology- Risk Management Program
OIG        Office of Inspector General
RDM        Regional Directors Memorandum
RM         Relationship Manager
ROE        Report of Examination
TSP        Technology Service Provider
URSIT      Uniform Rating System for Information Technology
U.S.C.     United States Code
ViSION     Virtual Supervisory Information on the Net
Federal Deposit Insurance                                                                       Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                            Office of Inspector General


DATE:                                     January 10, 2007

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

FROM:                                     Russell A. Rau [Electronically produced version; original
                                          signed by Russell A. Rau]
                                          Assistant Inspector General for Audits

SUBJECT:                                  The Division of Supervision and Consumer Protection’s
                                          Information Technology-Risk Management Program
                                          (Report No. 07-002)


This report presents the results of our audit of the Division of Supervision and Consumer
Protection’s (DSC) procedures for addressing information technology (IT) security risks
at FDIC-supervised financial institutions. To ensure that FDIC-supervised financial
institutions implement adequate information security program controls, DSC conducts
periodic onsite IT examinations generally in concert with its safety and soundness
examinations.

The objective of the audit was to determine whether the FDIC had established and
implemented adequate procedures for addressing IT security risks at FDIC-supervised
financial institutions that offer electronic banking products and services. We focused this
audit on DSC’s Information Technology-Risk Management Program (IT-RMP), an
examination process implemented in August 2005 and designed to review a financial
institution’s information security program and related risk-management practices.1
Appendix I of this report discusses our audit objective, scope, and methodology in detail.

BACKGROUND

Information is one of a financial institution’s most important assets. Protection of
information assets is necessary to establish and maintain trust between the financial
institution and its customers, maintain compliance with the law, and protect the
reputation of the institution. Timely and reliable information is necessary to process
transactions and support financial institution and customer decisions. A financial
institution’s earnings and capital can be adversely affected if information becomes known
to unauthorized parties, is altered, or is not available when it is needed.

Information security is the process by which an organization protects and secures its
systems, media, and facilities that process and maintain information vital to its

1
 The FDIC Office of Inspector General (OIG) is evaluating FDIC examiners’ use of a subset of the IT-
RMP examination procedures related to technology service providers (TSP). The results of that audit will
be published in a separate report.
operations. On a broad scale, financial institutions have a primary role in protecting the
nation’s financial services infrastructure. The security of the financial institutions’
systems and information is essential to their safety and soundness and to the privacy of
customer information.

Organizations often inaccurately perceive information security as the state or condition of
controls at a point in time. Security is an ongoing process, whereby the condition of a
financial institution’s controls is just one indicator of its overall security posture. Other
indicators include the ability of the institution to continually assess its posture and react
appropriately in the face of rapidly changing threats, technologies, and business
conditions. A financial institution establishes and maintains effective information
security when it continuously integrates processes, people, and technology to mitigate
risk in accordance with risk assessment and acceptable risk-tolerance levels.

Interagency Guidelines Establishing Information Security Standards

Pursuant to section 39 of the Federal Deposit Insurance (FDI) Act, and sections 501 and
505(b) of the Gramm-Leach-Bliley Act (GLBA), the federal banking agencies issued
Interagency Guidelines Establishing Information Security Standards (Guidelines). These
Guidelines address standards for developing and implementing administrative, technical,
and physical safeguards to protect the security, confidentiality, and integrity of customer
information. The Guidelines require each financial institution to implement a
comprehensive written information security program designed to:

   •   ensure the security and confidentiality of customer information;
   •   protect against any anticipated threats or hazards to the security or integrity of
       such information; and
   •   protect against unauthorized access to or use of such information that could result
       in substantial harm or inconvenience to any customer.

The Guidelines further require that the board of directors or an appropriate committee of
the board of each financial institution:

   •   approve the financial institution’s written information security program and
   •   oversee the development, implementation, and maintenance of the financial
       institution’s information security program, including assigning specific
       responsibility for its implementation and reviewing reports from management.




                                              2
FFIEC Information Security Booklet

In July 2006, the Federal Financial Institutions Examination Council (FFIEC) issued
revised guidance for examiners and financial institutions in identifying information
security risks and evaluating the adequacy of controls and applicable risk management
practices of financial institutions. The Information Security Booklet is 1 of 12 that, in
total, comprise the FFIEC IT Examination Handbook. The Information Security Booklet
describes how an institution should protect and secure the systems and facilities that
process and maintain information and builds on the Guidelines (discussed above) by
providing additional and more detailed explanations of sound security-process elements.
The booklet states that financial institutions and TSPs must maintain effective security
programs tailored to the complexity of their operations. The July 2006 Information
Security Booklet updated a 2002 version and addressed changes in technology, risk
assessments, mitigation strategies, and regulatory guidance.

DSC’s IT-Risk Management Program

DSC generally conducts IT examinations in conjunction with safety and soundness
examinations every 12 or 18 months, depending on the asset size and financial condition
of the institution. Institutions found to be in noncompliance with the Guidelines can face
supervisory actions ranging from informal agreements to civil monetary penalties or
other enforcement actions.

In 2005, DSC updated its risk-
focused IT examination                  The Five Key Areas of Focus Under IT-RMP
procedures for FDIC-supervised          • Risk Assessment
financial institutions. DSC issued      • Operations Security and Risk Management
a Regional Directors                    • Audit and Independent Review
Memorandum (RDM),                       • Disaster Recovery and Business Continuity
Information Technology – Risk           • Compliance with Part 364, Appendix B, of the
Management Program (IT-RMP)                FDIC’s Rules and Regulations
on August 15, 2005, to implement
the IT-RMP and related                  Source: RDM 2005-031.
examination procedures (RDM 2005-031). The IT-RMP replaced the broad-based
technology and control reviews conducted under the former IT-Maximum Efficiency,
Risk Focused, Institution Targeted (IT-MERIT) program and related work programs with
a top-down approach to assess the adequacy of an institution’s information security
program. The IT-RMP places considerable emphasis on management, information
security program content, and confirmations and assurances obtained through audit or
independent review. The IT-RMP integrates with the FDIC’s Relationship Manager
Program2 by including the results of the IT examination within the safety and soundness
Report of Examination (ROE) for all FDIC-supervised financial institutions, regardless of
size, technical complexity, or prior examination rating.

2
   DSC implemented the Relationship Manager Program in September 2005. A key aspect of this program
is the designation of a Relationship Manager (RM) for every FDIC-supervised financial institution. Each
RM serves as the designated local point-of-contact for the respective financial institutions in their portfolio.


                                                       3
Key components of the IT-RMP include the following:

•   Technology Profile Script (Profile Script). A mandatory tool used to measure the
    risk and complexity of technology deployed at an              Technology Profile Script
    institution and to assess examination staffing needs.               Institution Types
    Examiners use the Profile Script, which contains 20         Institutions for which IT
    questions, to collect information about an institution’s IT examinations had been started
    environment and, using a numeric scoring process,           and completed from January 1,
    categorize institutions into one of three risk/complexity   2006 to June 19, 2006:
    categories (Type I&II, III, or IV). The categories are also
                                                                Type I&II – 328 institutions
    used to assign appropriately-qualified IT examiners to IT
                                                                Type III – 385 institutions
    examinations. Together with the Officer’s Questionnaire     Type IV – 37 institutions
    (see below) and other information, the Profile Script is    Source: OIG-prepared from DSC
    used to develop an institution risk profile and preliminary examination information.
    examination scope.

•   IT Examination Officer’s Questionnaire (Officer’s Questionnaire). A mandatory
    tool examiners use to collect key information about an institution’s IT environment
    prior to conducting an IT examination. The questionnaire represents the financial
    institution’s self-assessment of its information security program and contains 85
    questions, generally in a “yes/no” format, targeting the 5 key areas of focus under IT-
    RMP. Information collected through the questionnaire is used with other relevant
    information to support risk analysis and scoping of IT examinations. The
    questionnaire must be signed by an executive-level management official of the
    institution attesting to its accuracy and completeness.

•   Flexible Use of Work Programs. The IT-RMP introduced a new IT Snapshot Work
    Program (Work Program) and an IT Summary Analysis (Summary Analysis) that
    examiners must use to document IT examination findings and conclusions.
    Examiners may also use applicable FDIC- or FFIEC-approved work programs, FDIC
    Financial Institution Letters (FIL), or other regulatory guidance in conducting an
    examination. IT-RMP procedures provide examiners with considerable discretion in
    determining the scope of an IT examination.

•   IT Rating Guidelines. Examiners assign a single “composite” rating at the
    conclusion of an IT examination using the Uniform Rating System for Information
    Technology (URSIT). The rating reflects “the effectiveness of an institution’s IT risk
    management practices and the completeness of its information security program.”3
    The URSIT ratings are discussed in the IT Composite Scoring section of this report.

Appendix II provides an overview of the IT-RMP examination procedures and illustrates
the tools used in the various stages of an IT examination.


3
  On January 13, 1999, the FFIEC adopted a revised URSIT to be used for IT examinations of all banks
and TSPs. The URSIT rating is based on a risk evaluation of four critical components, namely: (1) Audit,
(2) Management, (3) Development and Acquisition, and (4) Support and Delivery.


                                                    4
RESULTS OF AUDIT

DSC has established procedures within the IT-RMP for addressing IT security risks at
FDIC-supervised financial institutions. These procedures address most of the
information security requirements contained in the Guidelines. Our review of 12 IT
examinations found that examiners generally followed the procedures outlined in the IT-
RMP, and in doing so, carried out the following activities:

•   Identified the risks and technology deployed at the institution for the purpose of
    determining examination staffing needs.
•   Reviewed the financial institution’s Officer’s Questionnaire regarding the bank’s risk
    management practices.
•   Performed onsite examination procedures to assess the financial institution’s
    information security program.
•   Assigned an IT composite rating at the conclusion of the examination and reported IT
    examination findings in the ROE.

However, improvements to the IT-RMP would help to ensure adequate and consistent
implementation of the IT-RMP and related examination procedures. Specifically, DSC
could revise certain IT-RMP tools to assist examiners in more effectively identifying
relevant IT security risks to be assessed. We concluded that DSC could:

•   Clarify in the IT-RMP guidance the purpose and use of the Profile Script or
    reevaluate the benefits of the continued use of this tool.
•   Enhance the Officer’s Questionnaire to address certain information security
    requirements contained in the Guidelines.
•   Modify IT-RMP guidance to (a) replace some “yes/no” questions in the Officer’s
    Questionnaire with more descriptive questions and (b) require that examiners
    evaluate, based on identified risks, a sample of positive responses to questions in the
    Officer’s Questionnaire to ensure their accuracy.
•   Expand instructions for the Summary Analysis to clarify the extent to which
    examiners should document an institution’s risk profile and corresponding procedures
    to address risks (IT-RMP Tools).

DSC also needs to update IT-RMP guidance to more clearly address the methodology
examiners should use in deriving the IT composite rating for a financial institution.
Clarified guidance could increase assurance that IT ratings accurately and consistently
reflect the effectiveness of an institution’s IT risk management practices and the
completeness of its information security program (IT Composite Scoring).

DSC is in the process of incorporating the IT-RMP approach into its examiner training
courses. In doing so, DSC needs to better align the examiner training program with the
top-down, risk-focused objective of the IT-RMP and consider expanding the program to
ensure that more examiners are sufficiently trained to perform effective IT examinations
(Examiner IT Training).



                                             5
IT-RMP TOOLS

As described earlier, the IT-RMP includes key components for identifying and addressing
IT risks at financial institutions: the Profile Script, Officer’s Questionnaire, Work
Program, and Summary Analysis. Improvements could be made to these tools to help
examiners more effectively provide coverage of the most significant IT security risks.

Technology Profile Script

DSC needs to reevaluate the benefits of the Profile Script within the IT-RMP program.
DSC designed the Profile Script under the former IT-MERIT examination program to be
a standardized basic measurement of the complexity and risk of the technology deployed
at a financial institution. The Profile Script was, and still is, the primary tool for
categorizing financial institutions into risk/complexity categories (Type I&II, III, or IV).
Under the previous IT-MERIT program, DSC used the Profile Script tool to:
(1) determine the examination work program,4 report format, and rating format;
(2) allocate examination resources and match examiner skills to the complexity of the
institution; and (3) determine training needs.

RDM 2005-031 states that, under the IT-RMP, the Profile Script “…will no longer
dictate examiner scope, but should be used to assess examination staffing needs and
changes to the financial institution’s technology environment.” The Profile Script
consists of 20 questions in 4 categories – Core Processing,
Networking, E-Banking, and Other. Seventeen of the                   Technology Profile
questions have a 5-point value, and the remaining three                Scoring Matrix
questions are valued at 10, 15, or 20 points. The total points   Type        Score Range
of all four categories are added together to derive a financial   I&II            0-49
institution’s profile score, as shown in the Technology            III           50-79
Profile Scoring Matrix. The resulting category or type is          IV           80-130
                                                                Source: RDM 2005-031.
one factor that DSC considers in determining the
appropriate examiner training and skill level needed to perform the IT examination, as
illustrated in the FDIC’s IT Examination Resource Strategy Matrix shown in
Appendix III of this report.

Although DSC refocused the use of the Profile Script, DSC elected not to revise the
content of the tool. For example, the Profile Script used for the IT-RMP, an IT risk-
management-focused program, contains the identical questions and scoring matrix used
in the previous IT-MERIT program, which was technology-based. Further, each
financial institution continues to be categorized by type, using the existing Technology
Profile Scoring Matrix. In addition, although the IT-RMP program description and
requirements state that the Profile Script will no longer dictate the examination scope, IT-
RMP examination procedures in RDM 005-031 provide that the Profile Script will be

4
 Under the IT-MERIT examination program, examiners were required to use the following work
programs: (a) Type I institutions – IT-MERIT Procedures, (b) Type II institutions – IT General Work
Program, (c) Type III institutions – IT General Work Program supplemented by FFIEC work programs, and
(d) Type IV institutions – FFIEC work programs.


                                                 6
used as a scoping tool in concert with the Officer’s Questionnaire and other information
obtained prior to onsite work in developing an institution’s risk profile.

DSC examination personnel commented on the usefulness of the Profile Script. Some
examiners noted that the Profile Script may no longer be necessary because the IT-RMP
is used for all financial institutions, regardless of a financial institution’s risk category
(Type I & II, III, or IV), thus the tool is not needed for establishing the examination work
program. In regard to using the Profile Script to assess examination staffing requirements
with the current scoring system, some examination personnel believed that a wide range
of financial institutions fall into the Type III category and that some Type III banks may
not need an experienced IT examiner to conduct the IT examination. One DSC official
said that the Profile Script is useful, but added that it should be updated to reflect risks
related to institutions that offer credit-card processing or utilize FedLine Advantage.5
Another DSC official stated that the Profile Script focuses on technology, and the training
identified in the IT Examination Resource Strategy Matrix (Appendix III) is technology-
focused; however, IT-RMP is management-focused.

Most of the information in the Profile Script is also reflected in the Officer’s
Questionnaire and Work Program. For example, three of the four categories in the
Profile Script – Core Processing, Networking, and E-Banking – are addressed in the
Part 2 – Operations Security and Risk Management section of the Officer’s
Questionnaire. The FDIC could consider using the information in the Officer’s
Questionnaire for IT examination scoping and staffing decisions rather than continuing to
require that examination personnel complete the Profile Script. A DSC official estimated
that examination personnel spend 1 hour preparing the Profile Script, which would equate
to about 757 hours that could have been expended for the IT examinations started and
completed for the first 6 months of 2006.6

DSC should either clarify the new purpose and use of the Profile Script in the IT-RMP or
reevaluate the need for continued use of the Profile Script. Since DSC currently relies
on Profile Script information to determine examination staffing, clarifying the tool’s
intended purpose and utilization in the IT-RMP could increase the FDIC’s assurance that
IT examiner skills and experience are commensurate with the risks associated with a
particular institution. However, given that similar information is already reflected in the
Officer’s Questionnaire, DSC may be in a position to eliminate preparation of the Profile
Script. Finally, re-evaluating the utility of the Profile Script as a scoping and staffing tool
could result in time-saving opportunities for IT-RMP examinations.




5
  FedLine Advantage is the Federal Reserve Bank’s electronic delivery channel, which uses Web
technologies to provide financial institutions access to critical payment systems, including Fedwire Funds
Service, Fedwire Securities Service, and FedACH (Automated Clearing House).
6
  These results comprise all DSC IT examinations started and completed during the period January 1, 2006
to June 20, 2006 for which a Profile Script had been entered into the Virtual Supervisory Information On
the Net (ViSION) system, based on data collected from ViSION on June 21, 2006.


                                                    7
IT Examination Officer’s Questionnaire (Officer’s Questionnaire)

DSC could enhance the Officer’s Questionnaire by including additional information
security risks for IT examiners’ assessments. The Officer’s Questionnaire is an integral
component of the IT-RMP and, when completed, serves as the financial institution’s self-
assessment of its information security program. The Officer’s Questionnaire contains 85
questions for the financial institution to answer in the IT-RMP’s key areas: (1) risk
assessment; (2) operations security and risk management; (3) audit and independent
review; (4) disaster recovery and business continuity; and (5) compliance with Part 364,
Appendix B, of the FDIC’s Rules and Regulations.

The Officer’s Questionnaire includes most, but not all, of the relevant information
security requirements contained in the FFIEC’s Information Security Booklet. We
compared the IT-RMP guidance with the Information Security Booklet and identified
certain areas for which the Officer’s Questionnaire coverage could be more complete, as
follows:

Identification of vulnerabilities as part of the risk assessment process: The
Information Security Booklet states that financial institutions should assess potential
threats and vulnerabilities of their information systems. Vulnerabilities can be
characterized as weaknesses in a system, or control gaps, that, if exploited, could result in
the unauthorized disclosure, misuse, alteration, or destruction of information or
information systems. The Officer’s Questionnaire does not specifically require that the
financial institution official provide information on vulnerabilities identified as part of the
institution’s risk assessment process. The Officer’s Questionnaire requires only a “yes”
or “no” response on whether vulnerability testing had been performed on internal systems
and the date and by whom the testing had been performed but not the results of the
vulnerability testing.

Benchmarks and security performance metrics for the information security
program: The Information Security Booklet provides that performance metrics can be
used to measure security policy implementation, the effectiveness and efficiency of
security services delivery, and the impact of security events on business processes. The
measurement of security characteristics can allow management to increase control and
drive improvements to the security process. The Officer’s Questionnaire does not
address the financial institution’s establishment or monitoring of security performance
metrics and benchmarks.

Access controls over customer information systems: The Information Security Booklet
states that the goal of access control is to allow access by authorized individuals7 and
devices8 and to disallow access to all others. The booklet also states that financial

7
  Authorized individuals may be institution and TSP employees, vendors, contractors, customers, or
visitors. Access should be authorized and provided only to individuals whose identity is established, and
their activities should be limited to the minimum required for business purposes.
8
  Authorized devices are those whose placement on the network is approved in accordance with institution
policy.


                                                    8
institutions should have an effective process to administer access rights. The Officer’s
Questionnaire does not address certain aspects of access controls over customer
information systems, such as: developing security strategies to limit unauthorized access
and the ability to perform unauthorized actions; implementing least privilege concepts to
restrict access to those with proper authorization; and establishing multiple control points
between threats and organization assets by layering controls.

Encryption of electronic customer information: The Information Security Booklet
states that financial institutions should use effective authentication methods to include
encrypting the transmission and storage of authenticators, such as passwords, personal
identification numbers, and digital certificates. The Officer’s Questionnaire has no
questions related to encryption.

Insurance coverage: The Information Security Booklet states that financial institutions
should carefully evaluate the extent and availability of insurance coverage in relation to
the specific IT risks that institutions are seeking to mitigate. Insurance may include
coverage for the following risks – vandalism of financial institution Web sites; computer
extortion associated with threats of attack or disclosure of data; theft of confidential
information; destruction or manipulation of data (including viruses); and insiders who
exceed system authorization. The Officer’s Questionnaire has no questions related to
insurance. However, DSC officials stated that questions related to insurance may already
be addressed through safety and soundness examinations.

Personnel security: The Information Security Booklet states that financial institutions
should mitigate the risks posed by internal users of bank data by: (1) performing
appropriate background checks and screening of new employees; (2) obtaining
agreements covering confidentiality, nondisclosure, and authorized use; (3) using job
descriptions, employment agreements, and training to increase accountability for
security; and (4) providing training to support awareness and policy compliance. DSC
officials pointed out that two questions addressed personnel security controls: (1) Do you
have an employee acceptable use policy (Y/N)?, and (2) Do you have an employee
security awareness training program (Y/N)? However, we noted that the Officer’s
Questionnaire does not address certain personnel security areas such as background
checks and confidentiality agreements for key individuals holding positions critical to the
implementation and oversight of the institution’s information security program.

Senior DSC officials responsible for the IT-RMP told us that the program has been in
place for 1 year and is ready for review and revisions, as necessary. DSC plans to obtain
input and suggestions for improvements to the IT-RMP from IT Assistant Regional
Directors’ quarterly meetings, the division’s internal review reports, IT examiners, and
OIG reviews.

Yes/No Format of Officer’s Questionnaire: DSC should also consider rephrasing the
questions in the Officer’s Questionnaire to improve the IT-RMP and related examination
procedures. Specifically, the “yes/no” format design of some questions in the
Questionnaire does not always provide IT examiners meaningful information on which to



                                             9
base risk-focused examination procedures or prompt the financial institution to provide
detailed information in the response. Several of the questions were designed to determine
not only whether a policy or procedure existed, but also whether that policy or procedure
was compliant or consistent with established criteria. For example, one question asks
“Does the scope of your risk assessment include an analysis of internal and external
threats to confidential customer and consumer information as described in Part 364,
Appendix B, of the FDIC’s Rules and Regulations (Y/N)?” Such a question is designed
to obtain information related to the adequacy or completeness of a control or requirement.
IT examiners could obtain more meaningful information during examination planning if
certain questions were rephrased to address an institution’s compliance or consistency
with specific regulations and guidance as shown below.

   Current Question: “Do you have an anti-spyware management program to protect end-user
   systems (Y/N)?”

   OIG-Proposed Question: Describe the institution’s policies, procedures, and practices for
   preventing and detecting spyware on computer systems consistent with the FDIC’s FIL-66-
   2005, Guidance on Mitigating Risks from Spyware, dated July 22, 2005. Spyware is a
   commonly-used term to describe software that collects data without the prior knowledge or
   informed consent of the data’s owner.

   Current Question: “Do you have policies/procedures for the proper disposal of information
   assets (Y/N)?”

   OIG-Proposed Question: Describe the institution’s policies, procedures, and practices for
   disposing of information assets consistent with the Interagency Guidelines Establishing
   Information Security Standards.


IT Snapshot Work Program (Work Program)

RDM 2005-031 directs examiners to use the Officer’s Questionnaire as a risk analysis
and scoping tool for quickly identifying potential security program strengths and
weaknesses. The memorandum states that examiners should always evaluate all
responses to the Officer’s Questionnaire in the context of effective IT risk management,
keeping in mind the potential severity, impact, and relationship of any “No” or blank
response to other responses in the same and other risk management categories, and
paying particular attention to responses that could affect the quality of the entire
information security program. Examiners may choose not to document “No” or blank
responses, provided the reason(s) for the scope adjustment or modification is documented
in the Summary Analysis (discussed in the next section of this report).

RDM 2005-031 does not specifically require examiners to evaluate “Yes” responses.
Rather, the guidance identifies the “No” responses as potential “red flag indicators” and
describes “Yes” responses as being equally important when evaluating the adequacy and
effectiveness of a financial institution’s information security program. Examiners we
interviewed indicated that bankers have an inferred bias toward answering “Yes” to



                                              10
questions on the Officer’s Questionnaire because they know that the “No” answers could
be construed as an indication of a problem.

For all 12 IT examinations we reviewed, the examiners followed up on selected “Yes”
responses from the Officer’s Questionnaire. However, for all 12 examinations reviewed,
we could not determine why certain “Yes” responses had been selected for additional
procedures, because examiners did not discuss the reason why in the examination scope.
Further, for 6 of the 12 examinations, we could not determine which procedures had been
completed to follow up on certain “Yes” responses, because examiners did not identify
these procedures in the Work Program comments or discuss them in the examination
scope.

In making changes to the IT-RMP, DSC should consider revising RDM 2005-031 to
include a provision that examiners evaluate, based on identified risks, a sample of “Yes”
responses contained in the Officer’s Questionnaire. Requiring validation of selected
“Yes” responses during the onsite discussion and verification phase of the examination
would provide the FDIC with additional assurance as to the adequacy of the financial
institution’s information security program. Also, this action could further assure the
FDIC that the institution official completing the questionnaire was informed and
knowledgeable about the information security program. Follow-up activity on IT areas
considered higher risk or selected “yes” responses related to specifically-identified IT
security risks would be consistent with the risk-focused approach of the IT-RMP
examination procedures.

IT Summary Analysis (Summary Analysis)

DSC could clarify its expectations of what information examiners should document in the
Summary Analysis. The Summary Analysis has two primary purposes: (1) scope
development that includes preparing a preliminary institution risk profile from historical
information and information gathered with other risk scoping tools, such as the Profile
Script and the Officer’s Questionnaire, and (2) report preparation that begins with
documenting the IT examination findings in the Summary Analysis. IT-RMP
examination procedures make the following references to an institution’s risk profile:

•   The completed Profile Script, Officer’s Questionnaire, and other pre-examination
    information should help examiners gain an understanding of bank operations and
    supporting infrastructure. The goal of this process is to develop a preliminary
    institution risk profile based on historical and other information obtained during the
    preplanning phase.
•   An institution’s risk profile should consider risk management, technical, and other
    components.
•   After completing the scoping process, examiners should have a reasonable
    understanding of the institution’s risk profile and, therefore, have a tentative list of
    items to be reviewed during the onsite examination.




                                             11
Although RDM 2005-031 requires that examiners develop a preliminary institution risk
profile as part of completing the Summary Analysis, the memorandum does not
specifically require that examiners document the risk profile. Further, RDM 2005-031
does not clearly identify what information should be
                                                         Minimum IT-RMP Exam Procedures
included in a risk profile.
                                                                • Site security inspection
                                                                • Risk assessment review
RDM 2005-031 states that for initial examinations               • Audit/independent review
under the IT-RMP, the examination scope will                    • Part 364 review
include, at a minimum, the procedures shown here.               • Onsite discussion or verification of
IT examiners are instructed to document the pre-                  all “N,” blank, “N/A,” and “None”
planned examination scope under the “Initial                      responses
                                                                • ACH and wire transfer review
Examination Scope” heading of the Summary
Analysis and scope changes that occur during the             Source: RDM 2005-031.
examination in the “Final Examination Scope”
section of this tool.

We reviewed the Summary Analysis document for each of the 12 sampled IT
examinations to determine the IT security risks that examiners had identified for the
financial institutions. For our analysis, we used information from DSC’s IT-RMP
training presentations and three case studies to determine what type of information should
be included in a risk profile. We identified the following key scoping elements in the
Summary Analysis section that could be used to present an institution’s risk profile.

Scoping Elements Related to Risk Profiling
    Summary Analysis Section                              Key Scoping Elements
Pre-Examination Information        -- Service Providers and Technologies Used.
                                   -- Services and Products Offered.
                                   -- Bank Ownership and Structure.
                                   -- Prior Examination Results, Ratings, and Status of Findings.
                                   -- Changes in Technologies, Personnel, Products, Services,
                                      Auditors, and Service Providers.
                                   -- Enforcement Actions Outstanding.
                                   -- Other Risks Identified Through Officer’s Questionnaire
                                      Responses.
Initial Examination Scope          -- IT-RMP Minimum (Mandatory) Procedures for Baseline Scope.
Comments                           -- Pre-examination Information Items for
                                      Initial Discussions with Management and
                                      Direction for Onsite Work.
Final Examination Scope Comments -- Changes in Risk and Testing Based on Results
(if different from initial scope)     of Executing Initial Examination Scope.
Source: IT-RMP Train-the-Trainer Course Materials.

The Summary Analysis for all 12 IT examinations we reviewed contained certain
elements of an institution risk profile shown in the table above; however, these elements
were not consistently captured for each examination. With respect to IT-RMP minimum
procedures, we found that the examiners did not identify all of the minimum-required
procedures in the Summary Analysis scope comments for 5 of the 12 examinations that
we reviewed. However, in all five instances, examination working papers indicated that
the minimum procedures had been performed.


                                                12
The risk profile is an important tool that can help an examiner in assessing a financial
institution’s IT security risk management program and directing examiner resources
toward examining areas in the financial institution with higher degrees of risk. Senior
DSC officials responsible for the IT-RMP agreed that examiners should document the
institution’s risk profile and the examination procedures planned and performed to
address identified risks. Doing so would provide greater assurance that the IT
examination procedures are risk-focused and prioritized and reflect the most effective use
of examiner resources. Moreover, a well-documented risk profile could serve as a
baseline for determining IT changes to an institution’s technology environment during
future IT examinations.

RECOMMENDATIONS

We recommend that the Director, DSC:

1. Modify the IT-RMP guidance to clarify the purpose and use of the Technology
   Profile Script as distinguished from its previous utilization under the IT-MERIT
   program, or reevaluate the costs and benefits of the continued use of this tool.

2. Modify the IT Examination Officer’s Questionnaire and IT Snapshot Work Program
   to provide for enhanced coverage of the following:
  • Identification of vulnerabilities as part of the risk assessment process.
  • Establishment of benchmarks and performance metrics for the information security
      program.
  • Access controls for customer information systems.
  • Encryption of electronic customer information.
  • Insurance coverage.
  • Personnel security.

3. Modify IT-RMP guidance to (a) replace some “yes/no” questions in the Officer’s
   Questionnaire with more descriptive questions that will facilitate risk analysis and
   scoping IT examinations and (b) require that examiners evaluate, based on identified
   risks, a sample of positive responses to the questions in the Officer’s Questionnaire to
   ensure their accuracy.

4. Modify IT-RMP guidance to clarify (a) what information should be included in an
   institution’s risk profile and (b) the extent to which examiners should document the
   risk profile and corresponding procedures planned and performed to address
   identified risks.




                                            13
IT COMPOSITE SCORING

For the 12 IT examinations we sampled, examiners had employed different
methodologies when assigning an IT composite rating.9 Presently, RDM 2005-031 and
examiner training provide high-level guidance on the assignment of IT composite ratings
used to classify IT examination results rather than detailed guidelines on developing the
ratings. DSC could enhance IT-RMP guidance to provide for a clearer correlation
between the IT composite rating definitions and the results of IT examination procedures
performed in the Work Program. Additional guidance could increase the FDIC’s
assurance that IT composite ratings assigned to financial institutions consistently reflect
the information security environment of the financial institutions examined.
Comparability of IT composite rating data also improves DSC’s ability to use that data
for trend analysis and performance measurement purposes.

The URSIT stipulates that a direct relationship exists between the composite rating and
the individual Audit, Management, Development and Acquisition, and Support and
Delivery (AMDS) component performance ratings but adds that the composite rating is
not a mathematical average of the individual components, and examiner judgment is used
to weigh the relative risk of the examination results for each component. Accordingly, a
poor rating in one component may influence the overall composite rating for an
institution. For example, if the audit function of a financial institution is viewed as
inadequate, the overall integrity of the IT systems is not readily verifiable. The URSIT
suggests in this case that a composite rating of less than satisfactory (“3,” “4,” or “5”)
would normally be appropriate.

According to the URSIT, a principal purpose of the composite rating is to identify those
financial institutions and service providers that pose an inordinate amount of IT risk and
warrant special supervisory attention. Thus, individual risk exposures that more
explicitly affect the viability of the organization and/or its customers should be given
more weight in the composite rating. In determining a composite rating, an examiner
also considers assessment factors such as (1) the significance of existing IT weaknesses,
(2) the adequacy of risk management practices, and (3) the sufficiency of strategic
planning. The URSIT rating definitions provide descriptive examples for each of the “1”
to “5” composite ratings. For example, a composite “1” definition states that the
financial institution has strong performance in every respect; generally has components
rated “1” or “2”; and exhibits (a) minor IT weaknesses, (b) risk management processes
that provide a comprehensive program to identify and monitor risk, (c) well-defined
strategic plans, (d) prompt management identification of weaknesses, and (e) the strong
financial condition and performance of the service provider. Appendix IV contains the
FFIEC URSIT composite ratings definitions.


9
  The composite ratings are assigned on a scale of “1” to “5.” A rating of “1” indicates the strongest
performance and management practices and the least degree of supervisory concern, while a rating of ”5”
indicates the weakest performance and management practices and, therefore, the highest degree of
supervisory concern.



                                                   14
Under the IT-RMP, DSC eliminated the assignment of IT component ratings but elected
to retain the use of the URSIT rating definitions for assigning an IT composite rating to a
financial institution.10 Specifically, RDM 2005-031 provides that (1) the examiner will
assign a composite rating at the conclusion of the examination using the URSIT rating
definitions, and (2) the assigned composite rating will reflect the effectiveness of a
financial institution’s IT risk management practices and the completeness of its
information security program as documented in the Work Program. However, according
to RDM 2005-031, while risk management is the focus of the IT-RMP, coverage of
existing URSIT component ratings is preserved. DSC is still required to develop the
component ratings during certain IT examinations.

IT Composite Ratings Definitions and Development

Examiners who conducted the 12 IT examinations in our sample used different
approaches to develop the IT composite rating. Examiners for 8 of the 12 examinations
we reviewed indicated that they had used the URSIT component methodology for
developing the composite ratings. Examiners for the remaining four examinations
indicated they had used a less structured method. For example, in one case, the rating
decision was based on the significance of the findings identified.

DSC could clarify RDM 2005-031 guidance that states “coverage of existing FFIEC
component ratings is preserved.” It is not clear whether this statement requires the
examiner to develop a ratings analysis using the URSIT component methodology or
whether it is a general comment on information that could be considered by the examiner.
Although the IT General Work Program is aligned to the four IT component rating
categories, examiners are not required to complete this work program under the IT-RMP.
In addition, RDM 2005-031 could more clearly explain the correlation between IT
examination procedures and the assessment factors in the URSIT composite rating
definitions. To illustrate, the Snapshot Work Program has only one general procedure
that directly references strategic planning. However, strategic planning is specifically
addressed as a key element in the URSIT composite rating definitions. Additional
guidance on other IT-RMP procedures that relate to the strategic planning analysis could
help ensure that this element (strategic planning) is consistently evaluated.

Consistency in developing IT composite ratings could enhance DSC’s ability to use the
results of its examinations activities for trend analysis or performance measurement
purposes. The following figure identifies the IT composite rating results for FDIC IT
examinations performed during the first half of 2006.




10
     IT component ratings will continue to be developed for examinations of TSPs.


                                                     15
Composite Ratings for FDIC IT Examinations Conducted in the First Half of 2006


                             Relative Ratings of 2006 IT-RMP Examinations

                      100%      5%        6%            8%                                      2%
                                                                    15%           10%

                      80%
                                                                                                              3
       Examinations




                                                        63%                                    78%
                      60%      77%       77%                                      70%                         2
          % of




                                                                    70%
                                                                                                              1
                      40%


                      20%                               29%
                               18%       18%                        15%           20%          19%
                       0%
                               Atlanta   Chicago     Dallas       Kansas City New York        San Francisco

                                                        DSC REGIONS

Source: OIG review of ViSION data.
Note: The data in the figure comprise all DSC IT examinations started and completed during the period
January 1, 2006 to June 19, 2006.

As shown, there are differences in the percentages of institutions rated “1,” “2,” or “3”
among the regions. This information could be important to DSC in analyzing trends and
assessing IT risks. However, for such information to be useful, it is important to ensure
that composite rating determinations are consistently developed among examiners. It
should be noted that other factors may be causing or contributing to the differences noted
in the figure above, including variations in the population of financial institutions
supervised by each region.

Moreover, the figure shows that the majority of financial institutions were assigned an IT
composite rating of “2.” The URSIT definition indicates that a financial institution with
a “2” rating exhibits safe and sound performance but may demonstrate modest
weaknesses in operating performance, monitoring, management processes, or system
development. ROEs for banks in our sample with an IT composite rating of “2” referred
to the bank’s IT program as “adequate” or “satisfactory.” Given the level of assurance
conveyed for the bank’s risk management and security processes by a “2” rating, it is
important that the process for developing this rating be clearly defined and consistently
implemented.




                                                   16
IT Rating Documentation

RDM 2005-031 and IT-RMP training presentations we reviewed do not address whether
the IT composite ratings analysis should be documented in the examination workpapers
to show how the examiners (1) considered the assessment factors in the URSIT
composite rating definitions or (2) weighted various examination findings in the
development of the composite rating. None of the examination workpapers for the 12
sampled examinations clearly documented how the composite rating had been
determined. Examiners are no longer required to assign URSIT component ratings,
which, in part, provide a standard means by which examiners can support how they
developed a composite rating. Absent such a requirement, it is important that examiners
follow a consistent, documented approach in making composite rating determinations.

RECOMMENDATION

We recommend that the Director, DSC:

5. Develop additional IT-RMP guidance to provide a consistent approach to developing
   and documenting a financial institution’s IT composite rating analysis. Guidance
   should clearly describe the correlation between the IT-RMP examination procedures
   and results and the FFIEC URSIT composite ratings definitions.

EXAMINER IT TRAINING

DSC is in the process of incorporating some of the elements of the IT-RMP into
examiner training courses, but the current training program could be better aligned to the
top-down, risk-focused objective of the IT-RMP. Additionally, the current IT examiner
training program could be expanded to provide non-IT examiners who are assigned to
conduct IT examinations with the opportunity for periodic on-the-job training at financial
institutions. These training program improvements would provide the FDIC with greater
assurance that IT examiners are well-prepared to effectively conduct IT examinations.

Alignment of IT-RMP Training

The IT examiner training program is primarily focused on technical subjects,11 yet the IT-
RMP approach places considerable emphasis on bank management, information security
program content, and confirmation and assurances through audit or independent review.
DSC provides examiner IT training through formal classroom and online training and a
formal IT-OJT program for IT specialty examiners. RDM 2005-031 includes an IT
Examination Resource Strategy Matrix, which recommends examiner skills and training
required for the particular category, or type, of financial institution determined by the
Profile Script. The matrix is included in Appendix III of this report. DSC used the same


11
  Examples of technical subjects include the IT examiner conference, transmission control
protocol/Internet protocol, operating system platforms, firewalls, intrusion detection system, and virtual
private network.


                                                     17
matrix under the previous IT-MERIT program but has not revised the matrix to reflect the
new management-centric approach of the IT-RMP.

DSC’s examiner IT training curriculum could be strengthened by including specific
courses that address business risk in an IT environment and prepare the examiner to:

•     identify and assess risk management deficiencies in a financial institution’s
      information security program,
•     prepare a written risk profile of a financial institution, and
•     prepare the IT examination scope that is justified by the institution’s risk profile.

With a training curriculum aligned to the objective of IT-RMP, examiners conducting IT
examinations would be better prepared to risk-focus the examination to the identified
business risks of the financial institution, rather than just the technical risks. In turn, the
FDIC would have greater assurance that the examination procedures conducted
thoroughly cover the management of a financial institution’s information security
program. DSC has initiated training in audit, business continuity, and risk assessment
and indicated that examiners have been requesting additional management-focused
training.

IT On-the-Job Training (IT-OJT) for Non-IT Examiners

DSC needs to consider expanding its IT-OJT program to provide DSC examiners with
more periodic exposure to financial institution IT environments. The IT-OJT program
and many of the IT training courses are geared to more experienced IT specialty
examiners. However, commissioned examiners who are not designated IT specialty
examiners may also conduct IT examinations, thus these examiners could benefit from
the IT-OJT program.

Commissioned DSC examiners submit applications to participate in the IT-OJT. This
program prepares safety and soundness examiners to conduct IT examinations of more
technologically-complex institutions. DSC assigns the less technologically complex
financial institutions having a lower risk profile to non-IT examiners who may have
completed certain basic IT training. DSC has stated that a positive attribute of IT-RMP is
that safety and soundness examiners would be competent to conduct IT examinations at
financial institutions that fall into the Type I & II category, once these examiners have
completed the requisite basic IT training. However, 16 of the 45 regional and field office
personnel we interviewed expressed concern that less-experienced examiners conducting
IT examinations may not always know when to ask specific questions in order to “drill
down” from summary information to more detailed data that is needed to adequately
assess an institution’s information security program.

Moreover, some questions in the Officer’s Questionnaire require the examiner to possess
an in-depth understanding of core processing, networks, and telecommunications. For
example, Part 2.f, Operations Security and Risk Management, of the Officer’s
Questionnaire and Work Program, asks, “Do you have formal configuration, change


                                               18
management, and patch management procedures for all applicable platforms identified?”
Part 3.d, Audit/Independent Review Program, asks, “Does audit coverage include a
comparison of actual system configurations to documented/baseline configuration
standards?” These two questions require the examiner to understand formal
configuration standards, policies, and procedures for identified platforms and to
understand the audit coverage for system configurations. Without this level of
understanding, the examiner would not be able to determine whether the configuration
management procedures and audit program are adequate.

In the area of IT-RMP training, DSC: (1) provided an overview briefing to IT examiners
in August 2005; (2) presented to certain specialty IT examiners an introduction to the IT-
RMP “train-the-trainer” course in December 2005 through February 2006; and
(3) awarded a contract to amend examiner course content and develop a course focused
on risk assessments, business continuity, and audit. IT-RMP program implementation
preceded the training by several months, and in certain cases, the risk-focused course
offerings have been scheduled only for future dates.

DSC examiners we interviewed consistently identified the need to get examiners into the
IT-OJT program. We estimated that 97 percent (733 of 757) of the financial institutions
examined during the first half of 2006 use networks in their operations.12 This illustrates
a need for a larger and specialized cadre of examiners capable of (1) conducting all
levels of IT examinations, and (2) coaching and training participants in the IT-OJT
program.

Although DSC has made some progress in aligning the examiner training program to the
objective of the IT-RMP, with additional enhancements to the IT training program, the
FDIC would have greater assurance that examiners are sufficiently prepared to conduct
effective IT examinations.

RECOMMENDATIONS

We recommend that the Director, DSC:

6. Revise DSC examiner training for conducting IT examinations to align with the
   objective of the IT-RMP.

7. Initiate efforts to increase the number of non-IT examiners who participate in IT-OJT
   examination training to increase DSC’s overall capability to conduct IT examinations.




12
  These results comprise all DSC IT examinations started and completed during the period January 1, 2006
to June 20, 2006 for which a Technology Profile Script had been entered into ViSION, based on data
collected from ViSION on June 21, 2006.


                                                  19
             CORPORATION COMMENTS AND OIG EVALUATION

On January 4, 2007, the Director, DSC, provided a written response, dated
December 12, 2006, to a draft of this report. DSC’s response is presented in its entirety
as Appendix V to this report. DSC generally agreed with our recommendations, noting
that it has plans to evaluate the first-year implementation of the August 2005 revision of
the IT-RMP. With regard to the IT-RMP tools and guidance, DSC will incorporate OIG
recommendations into its evaluation and issue revised guidance as deemed necessary.
With regard to DSC’s IT training programs, DSC will review its training processes and
determine whether enhancements are needed. DSC plans to complete these actions by
September 30, 2007.

DSC’s actions are responsive to our recommendations. A summary of management’s
response to the recommendations is in Appendix V. The recommendations are resolved
but will remain open until we have determined the agreed-to corrective actions have been
completed and are effective.




                                            20
                                                                                  APPENDIX I


                    OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of this audit was to determine whether the FDIC had established and
implemented adequate procedures for addressing IT security risks at FDIC-supervised
financial institutions that offer electronic banking products and services. We conducted
our audit in accordance with generally accepted government auditing standards during
the period December 2005 through September 2006.

Scope and Methodology

The scope of the audit focused on assessing the guidance and procedures that supported
the implementation of the top-down, risk-focused objective of the IT-RMP for IT
examinations of FDIC-supervised institutions. We performed the following:

•   Evaluated the IT-RMP procedures for assessing IT security risks and examining IT
    security programs, detailed in RDM 2005-031, Information Technology-Risk
    Management Program (IT-RMP), for consistency with applicable laws, regulations,
    and other guidelines related to IT security. Other guidelines included the FFIEC’s
    Information Security Booklet (December 2002 and July 2006 revisions), 1 of 12
    booklets, that, in total, comprise the FFIEC Information Technology (IT)
    Examination Handbook.
•   Interviewed DSC personnel responsible for development and oversight of the IT-
    RMP and the subsequent training on the IT-RMP.
•   Interviewed DSC personnel involved with DSC activities related to monitoring new
    and emerging technologies.
•   Interviewed other regional DSC personnel involved with the IT-RMP
    implementation, including DSC IT Assistant Regional Directors and IT Examination
    Specialists.
•   Reviewed the management information system reports used by the FDIC in its self-
    assessment of the IT examination program.

We selected a judgmental sample of 12 examinations from a total of 292 examinations
conducted during the period January 2006 through March 2006, consisting of 4
examinations conducted in the New York Region, 4 in the San Francisco Region, and 4
in the Kansas City Region. To select our sample, we performed the following.

•   Stratified the population of examinations conducted during our period of review by
    the following areas: (1) the existence of a transactional Web site within the financial
    institution, (2) DSC region, (3) TPS risk type, (4) URSIT composite rating, (5) total
    Profile Script score (a measure of complexity and thus risk), and (6) institution asset size
    as of December 31, 2005.
•   Considered transactional Web capability and a high-total Profile Script score to be
    indicative of key information security risk factors.



                                               21
                                                                                   APPENDIX I


•   Considered the URSIT composite rating and institution asset size to be reflective of the
    relative potential impact of those risk factors.
•   Considered only banks with transactional Web sites and Profile Script risks types I-II or III
    for selection.

Because of the size, complexity, and visibility of financial institutions with a Profile Script risk
type IV, we concluded there was a lower risk that they may not receive an appropriate level of
supervisory review, and thus, did not include financial institutions with a Profile Script risk
type IV in our sample.

We selected our sample from the New York, Kansas City, and San Francisco regions based on
the following considerations.

•   The New York Region had the largest dollar-value financial institutions in our sample
    population.
•   The Kansas City Region had the largest number of financial institutions in our sample
    population.
•   The San Francisco Region had the most widely dispersed financial institutions in our
    sample population.

We discussed our proposed sample with DSC management to explain our methodology and to
ensure that our sample would produce meaningful results. DSC provided suggestions
regarding which regional offices, IT composite ratings, and institution asset sizes that we
should consider in selecting our sample. We incorporated these suggestions as appropriate,
and performed the following audit steps:

•   reviewed ROEs and supporting working paper documentation for the 12 sampled
    examinations to evaluate consistency with the IT-RMP, and
•   interviewed regional and field office DSC personnel responsible for implementing the
    IT-RMP for the sampled IT examinations, including IT examiners.

Internal Controls

We gained an understanding of relevant internal controls by reviewing: (1) FDIC
policies and procedures, such as Regional Directors Memoranda, related to the IT-RMP;
(2) the IT examiner training curriculum; (3) FDIC procedures for assessing the adequacy
of IT examination work; and (4) available FDIC documentation regarding the
implementation of IT examination and supervision procedures. In addition, we
interviewed DSC individuals involved in IT examinations, supervision, and IT training
activities.

Reliance on Computer-Based Data

We obtained certain data from DSC’s ViSION system to identify IT examinations
conducted subsequent to the August 15, 2005 implementation of the IT-RMP and to
provide historical data on the Profile Script scores and IT composite ratings for those


                                                22
                                                                             APPENDIX I

examinations. We did not assess the reliability of the computer-based data because these
data were not significant to our findings, conclusions, or recommendations.

Government Performance and Results Act

The Government Performance and Results Act of 1993 directs federal agencies to
develop a strategic plan and annual performance plans to help improve federal program
effectiveness and service delivery. We reviewed the FDIC’s Strategic Plan for 2005-
2010, the FDIC 2005 Annual Performance Plan, and the FDIC 2006 Annual
Performance Plan. We determined that the FDIC did not have a strategic goal or
objective specifically related to IT examinations. However, the means and strategies the
FDIC uses to achieve a strategic goal that FDIC-supervised institutions are safe and
sound includes IT examinations in general, as stated in the FDIC 2005 Annual
Performance Plan:

       The FDIC also continues to focus on the risks posed by technology. Both onsite
       risk management and information technology examinations cover technology-
       related activities to determine how each FDIC-supervised depository institution
       manages risk in that area. The FDIC uses a monitoring system to proactively
       identify and assess indicators of technology risks that may impact FDIC-
       supervised institutions. The FDIC will also augment its general training
       curriculum for examiners to include more training on technology issues.

The FDIC 2006 Annual Performance Plan includes similar means and strategies
information and adds that, in regard to training, the Information Technology Examination
Course, which teaches examiners how to better integrate technology risk management,
will be revised as a result of the IT-RMP.

We reviewed the FDIC’s Corporate Performance Objectives (CPO) for 2005 and 2006.
We determined that none of the 2005 or 2006 CPOs directly relate to the IT-RMP.
However, two CPO goals indirectly relate to IT examinations:

   •   Enhance the FDIC’s ability to manage its insurance risk to include ensuring that
       the supervision program effectively identifies and mitigates risk (as stated in the
       2006 CPO).
   •   Continue to improve the FDIC’s risk management and compliance examination
       programs by implementing the Relationship Manager Program (2005 CPO) and
       enhancing the data security examination program for TSPs (2006 CPO).

We also reviewed DSC’s 2006 Division Objectives and identified an action to update the
Directors’ College ROE workshop and develop an Advanced Director’s College. The
planned action states that the ROE update will include IT and compliance ratings and
corresponding comments.




                                            23
                                                                                           APPENDIX I


Fraud and Illegal Acts

We did not develop specific audit procedures to detect fraud and illegal acts because they
were not considered material to the audit objective. However, throughout the audit, we
were sensitive to the potential for fraud, waste, abuse, and mismanagement.

Laws and Regulations

In conducting the audit, we considered the following laws, rules, and regulations.

•     Gramm-Leach-Bliley Act. GLBA (15 United States Code (U.S.C.) §6801)
      provides for the protection of nonpublic personal information. Each financial
      institution has an obligation to respect the privacy of its customers and to protect the
      security and confidentiality of those customers' nonpublic personal information.
      Each financial institution must establish administrative, technical, and physical
      safeguards to ensure confidentiality of customer records and information; to protect
      against any anticipated threats or hazards to the security or integrity of such records;
      and to protect against unauthorized access to or use of such records or information
      that could result in substantial harm or inconvenience to any customer.
•     Fair and Accurate Credit Transactions Act of 2003 (FACT Act). This Act
      amends the Fair Credit Reporting Act (15 U.S.C. §1681) by adding provisions
      covering identity theft, consumers’ access to credit information, enhanced consumer
      report accuracy, and financial literacy.
•     FDI Act Section 10 - Provisions Related to Examination Authority. The FDI
      Act requires the FDIC to perform periodic "full scope" examinations of banks.
      There is no specific requirement in the Act for the performance of IT examinations;
      however, they are considered to be intended as part of the "full scope" provision.
•     FDIC Rules and Regulations Part 364, Appendix B - Interagency Guidelines
      Establishing Information Security Standards (Including Supplement A). These
      guidelines establish standards for financial institution information security
      programs, including administrative, technical, and physical safeguards; measures to
      properly dispose of consumer information; and elements of a financial institution’s
      response program to address unauthorized access to, or use of, customer
      information, including customer notification procedures.13

Prior Audit Coverage

The OIG has conducted several prior audits on the FDIC’s IT examination procedures
and related efforts to protect sensitive customer information.



13
  According to FIL-27-2005, Guidance on Response Programs for Unauthorized Access to Customer
Information and Customer Notice, when an incident of unauthorized access to sensitive customer
information involves information systems maintained by a bank’s TSP, it is the institution’s responsibility
to notify its customers and regulator. However, a bank may contract with its TSP to notify the institution’s
customers or regulator on its behalf.


                                                     24
                                                                         APPENDIX I


•   Audit Report No. 06-015, FDIC’s Oversight of Technology Service Providers,
    issued July 20, 2006. The objective was to assess the FDIC’s examination
    coverage of TSPs and related efforts to protect sensitive customer information. The
    report made six recommendations to help the FDIC: (1) better identify and monitor
    TSPs with access to sensitive customer information and (2) improve the process the
    FDIC uses (in conjunction with the other FFIEC agencies) for assessing the risks
    posed by, and prioritizing for examination, those TSPs with access to sensitive
    customer information. DSC’s response and proposed actions were sufficient to
    resolve each recommendation.

•   Audit Report No. 06-009, FDIC’s Guidance to Institutions and Examiners for
    Implementing the Gramm-Leach-Bliley Act Title V and the Fair and Accurate
    Credit Transactions Act, issued February 24, 2006. The objective was to
    determine whether the FDIC provided adequate guidance to FDIC-supervised
    institutions and examiners for implementing the data privacy and security provisions
    of the GLBA Title V and FACT Act. We recommended that the FDIC finalize the
    interim examination guidance that addresses FACT Act provisions and develop, in
    coordination with the joint-agency rulemaking committee, a more aggressive project
    management plan to expedite the issuance of final rules and regulations for all
    FACT Act provisions. DSC’s responses and proposed actions were sufficient to
    resolve each recommendation.

•   Audit Report No. 04-022, FDIC’s Information Technology Examination
    Program, issued June 15, 2004. The objective of this audit was to determine
    whether the FDIC’s IT examinations provided reasonable assurance that IT risks
    were being addressed by the risk management programs in FDIC-supervised
    financial institutions. The audit also determined whether the FDIC had
    implemented GLBA-related recommendations in OIG Audit Report No. 03-044,
    The Federal Deposit Insurance Corporation’s Progress in Implementing the
    Gramm-Leach-Bliley Act, Title V – Privacy Provisions, dated September 26, 2003.
    We recommended that DSC institute a standardized quality review of all phases of
    the IT examination process and supporting documentation prior to issuance of IT
    examination results. DSC’s responses and proposed actions were sufficient to
    resolve the recommendation.




                                          25
                                                                        APPENDIX II


                          IT-RMP EXAMINATION STEPS



Step                           Procedure                                Tool Used
#1     Preplanning
       Review prior/post examination documents; incorporate
       management discussions, changes in technology, personnel     Technology Profile
       and services, security incidents, and audit findings.        Script
#2     Preplanning                                                  IT Examination
       Send IT Examination Officer’s Questionnaire to financial     Officer’s
       institution.                                                 Questionnaire
#3     Risk Scoping                                                 Technology Profile
       Gain an understanding of the financial institution’s risk    Script and
       management practices.                                        IT Examination
                                                                    Officer’s
                                                                    Questionnaire
#4     Scope Development
       Develop a preliminary financial institution risk profile
       based on historical and other information obtained during    IT Summary
       preplanning and risk-scoping activities.                     Analysis
#5     Onsite Examination Procedures                                IT Snapshot Work
       Execute scope based on a preliminary assessment and          Program and IT
       understanding of the financial institution’s risk profile.   Summary Analysis
#6     IT Composite Rating
       Assign the rating at the conclusion of the examination       IT Summary
       based on FFIEC ratings definitions.                          Analysis
#7     Report Preparation
       Document IT examination findings and prepare ROE             IT Summary
       comments. Update ViSION.                                     Analysis




                                           26
                                                                                                                               APPENDIX III



                                   IT EXAMINATION RESOURCE STRATEGY MATRIX

         Institution Characteristics                    Examiner Skills Required                               Examiner Training
Type   Score
 I     0-49   -- Limited networking             -- Basic networking concepts*                     Required
              -- Limited E-Banking activities   -- Ability to evaluate pre-exam                   -- Commissioned Examiner
              -- Minimal external threats       questionnaire responses                           -- Annual IT refresher
              -- Risks are centered in core     -- High-level core application procedures*        -- Computer-based training (various)
              processing
              -- No in-house programming        *Available in safety and soundness IT refresher   Recommended
              -- Does not process core          training.                                         -- Information Technology Examination
              applications for others                                                             Course (ITEC)

                                                                                                  Note: Phase-in requirement for all
                                                                                                  Commissioned Examiners to attend ITEC
 II           -- Limited networking             -- Basic network concepts                         Required
              -- Limited E-Banking activities   -- Ability to evaluate pre-exam                   -- See Type I required training
              -- Minimal external threats       questionnaire responses                           -- ITEC
              -- Risks are centered in core     -- Ability to apply and complete IT
              processing                        General Work Program                              Recommended
                                                -- Vendor-specific knowledge for core             -- i-NET+, Network+, Security+*
                                                processing systems                                -- Transmission Control Protocol/Internet
                                                                                                  Protocol (TCP/IP)
                                                                                                  -- Regional seminars
                                                                                                  -- Begin OJT mentoring
                                                                                                  -- FFIEC conference
                                                                                                  * Intermediate IT courses.




                                                                 27
                                                                                                                               APPENDIX III




        Institution Characteristics                         Examiner Skills Required                          Examiner Training
Type Score                                                           Type                          Score
 III   50-79   -- Networks are an integral element    -- Intermediate network concepts             Required
               of technology operations               -- Ability to evaluate pre-exam              -- See Type II required training
               -- E-Banking activities                questionnaire responses                      -- i-NET+, Network+, Security+
               -- Threats = Type II threats and       -- Ability to apply and complete IT          -- TCP-IP
               introduction of external threats       General Work Program                         -- Operating system platforms
               -- Risk = Type II and exposure to      -- Vendor and device-specific knowledge      -- IT-OJT – intermediate
               public networks and external           of all systems
               breaches                                                                            Recommended
                                                                                                   -- Flexible training
                                                                                                   -- Firewalls, Intrusion Detection System
                                                                                                   (IDS), virtual private networks (VPNs),
                                                                                                   wireless, advanced platforms
                                                                                                   -- Certifications
                                                                                                   -- FFIEC conference
                                                                                                   -- FDIC seminar
 IV     80-    -- Communication systems are           -- Advanced platform-specific knowledge      Required
        130    critical to operations                 -- Advanced knowledge of networking &        -- See Type III required training
               -- Widely distributed Internet         telecommunications concepts                  -- IS/OJT – Advanced
               working                                -- High level of understanding of security   -- Firewalls, IDS, VPNs, wireless, advanced
               -- Threats = Type III threats and      concepts                                     platforms
               multiple external sources of threats
               -- Risk = Type III and higher                                                       Recommended
               administrative and security risks                                                   -- Flexible training
                                                                                                   -- FDIC seminar
                                                                                                   -- Certifications
                                                                                                   -- Product specialization




                                                                    28
                                                                            APPENDIX IV


              FFIEC’s URSIT COMPOSITE RATINGS DEFINITIONS

Composite 1

Financial institutions and service providers rated composite “1” exhibit strong
performance in every respect and generally have components rated “1” or “2.”
Weaknesses in IT are minor in nature and are easily corrected during the normal course
of business. Risk management processes provide a comprehensive program to identify
and monitor risk relative to the size, complexity, and risk profile of the entity. Strategic
plans are well defined and fully integrated throughout the organization. This allows
management to quickly adapt to changing market, business, and technological needs of
the entity. Management identifies weaknesses promptly and takes appropriate corrective
action to resolve audit and regulatory concerns. The financial condition of the service
provider is strong, and overall performance shows no cause for supervisory concern.

Composite 2

Financial institutions and service providers rated composite “2” exhibit safe and sound
performance but may demonstrate modest weaknesses in operating performance,
monitoring, management processes, or system development. Generally, senior
management corrects weaknesses in the normal course of business. Risk management
processes adequately identify and monitor risk relative to the size, complexity, and risk
profile of the entity. Strategic plans are defined but may require clarification, better
coordination, or improved communication throughout the organization. As a result,
management anticipates but responds less quickly to changes in market, business, and
technological needs of the entity. Management normally identifies weaknesses and takes
appropriate corrective action. However, greater reliance is placed on audit and regulatory
intervention to identify and resolve concerns. The financial condition of the service
provider is acceptable, and while internal control weaknesses may exist, there are no
significant supervisory concerns. As a result, supervisory action is informal and limited.

Composite 3

Financial institutions and service providers rated composite “3” exhibit some degree of
supervisory concern due to a combination of weaknesses that may range from moderate
to severe. If weaknesses persist, further deterioration in the condition and performance of
the institution or service provider is likely. Risk management processes may not
effectively identify risks and may not be appropriate for the size, complexity, or risk
profile of the entity. Strategic plans are vaguely defined and may not provide adequate
direction for IT initiatives. As a result, management often has difficulty responding to
changes in business, market, and technological needs of the entity. Self-assessment
practices are weak and are generally reactive to audit and regulatory exceptions. Repeat
concerns may exist, indicating that management may lack the ability or willingness to
resolve concerns. The financial condition of the service provider may be weak, and/or
negative trends may be evident. While financial or operational failure is unlikely,



                                             29
                                                                             APPENDIX IV

increased supervision is necessary. Formal or informal supervisory action may be
necessary to secure corrective action.

Composite 4

Financial institutions and service providers rated composite “4” operate in an unsafe and
unsound environment that may impair the future viability of the entity. Operating
weaknesses are indicative of serious managerial deficiencies. Risk management
processes inadequately identify and monitor risk, and practices are not appropriate given
the size, complexity, and risk profile of the entity. Strategic plans are poorly defined and
not coordinated or communicated throughout the organization. As a result, management
and the board are not committed to, or may be incapable of, ensuring that technological
needs are met. Management does not perform self-assessments and demonstrates an
inability or unwillingness to correct audit and regulatory concerns. The financial
condition of the service provider is severely impaired and/or deteriorating. Failure of the
financial institution or service provider may be likely unless IT problems are remedied.
Close supervisory attention is necessary and, in most cases, formal enforcement action is
warranted.

Composite 5

Financial institutions and service providers rated composite “5” exhibit critically
deficient operating performance and are in need of immediate remedial action.
Operational problems and serious weaknesses may exist throughout the organization.
Risk management processes are severely deficient and provide management little or no
perception of risk relative to the size, complexity, and risk profile of the entity. Strategic
plans do not exist or are ineffective, and management and the board provide little or no
direction for IT initiatives. As a result, management is unaware of, or inattentive to,
technological needs of the entity. Management is unwilling or incapable of correcting
audit and regulatory concerns. The financial condition of the service provider is poor,
and failure is highly probable due to poor operating performance or financial instability.
Ongoing supervisory attention is necessary.




                                              30
                       APPENDIX V


CORPORATION COMMENTS




         31
     APPENDIX V




32
     APPENDIX V




33
     APPENDIX V




34
                                                                                                                                                 APPENDIX VI



                                           MANAGEMENT RESPONSE TO RECOMMENDATIONS
This table presents the management response on the recommendations in our report and the status of the recommendations as of the
date of report issuance.
                                                                                                                                      Open
 Rec.                                                                       Expected              Monetary       Resolved:a            or
Number          Corrective Action: Taken or Planned/Status               Completion Date          Benefits       Yes or No           Closedb
               DSC will incorporate these
     1-5       recommendations into its planned                         September 30, 2007             0             Yes               Open
               evaluation of the first year of performance
               under the IT-RMP program and issue
               additional guidance where necessary.
    6 and 7    DSC will review its training processes and
               determine if enhancements are needed.                    September 30, 2007             0             Yes               Open

a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                   management provides an amount.
b
    Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.




                                                                                  35
